D
R                                                           MINE SAFETY & HEALTH
A
F                                                           ADMINISTRATION
T




              Office of Inspector General—Office of Audit




                                                            MSHA'S CONTROLS OVER CONTRACT
                                                            AWARDS NEED STRENGTHENING




                                                                                Date Issued:   February 16, 2011
02-A12-345-67-890                                                            Report Number:     05-11-001-06-001
U.S. Department of Labor                                    February 2011
Office of Inspector General
Office of Audit
                                                            MSHA'S CONTROLS OVER CONTRACT
                                                            AWARDS NEED STRENGTHENING

BRIEFLY…
Highlights of Report Number 05-11-001-06-001, to the
Assistant Secretary of Labor for Mine Safety and            WHAT OIG FOUND
Health.                                                     The OIG found that MSHA did not adequately support
                                                            sole source awards, promote full and open competition,
WHY READ THE REPORT                                         or maximize small business opportunities for 28 percent
The mission of the U.S. Department of Labor’s (DOL)         of the contract awards. Deficiencies included no
Mine Safety and Health Administration (MSHA) is to          justifications or inadequate justifications to make
promote safe and healthful workplaces for the nation's      awards without full and open competition, no
miners. DOL’s Office of the Assistant Secretary for         Procurement Review Board reviews and Chief
Administration and Management (OASAM)                       Acquisition Officer approvals when required, no
responsibilities include managing the Department’s          publication of solicitations, and no review of proposed
procurement programs. OASAM has delegated to                procurements by the Office of Small Business
MSHA the authority and responsibility to contract for all   Programs.
of MSHA’s program property and services. Within
MSHA, the Directorate of Administration and                 In addition, MSHA did not comply with applicable DOL
Management (A&M) is responsible for managing                procurement procedures for 38 percent of the awards.
contracting activity.                                       Deficiencies included no review of solicitations or pre-
                                                            award packages by DOL’s Office of the Solicitor as
Federal procurement regulations require, among other        required by a Memorandum of Agreement, no approval
things, that MSHA promote full and open competition,        by the Assistant Secretary for Administration and
provide maximum opportunities to small businesses,          Management, no conflict of interest certifications from
and ensure compliance with general procurement              program officials, and incomplete Simplified Acquisition
requirements. Past Office of Inspector General (OIG)        Documentation Checklists (Form DL 1-2216) for
audit work at MSHA identified weaknesses in these           contracts under $100,000.
areas. Specifically, a 2004 report concluded that MSHA
consistently demonstrated a lack of regard for Federal      These deficiencies occurred because of a lack of
Acquisition Regulation principles, and a 2008 report        management oversight. By not promoting full and open
identified weaknesses in MSHA’s awarding of                 competition, maximizing small business opportunities,
procurement actions without full and open competition       or following appropriate procurement procedures,
(i.e., sole source).                                        MSHA could not demonstrate that it made the best
                                                            award decisions.
WHY OIG CONDUCTED THE AUDIT
We conducted this audit to determine whether MSHA           WHAT OIG RECOMMENDED
complied with appropriate procurement regulations and       The OIG made 4 recommendations to the Assistant
procedures when making new contract awards.                 Secretary for Mine Safety and Health to ensure
                                                            procurement officials comply with procedures, require
The audit covered 133 new awards with individual            supervisory review of contracts, provide refresher
values of $25,000 or more that MSHA awarded from            training to personnel, and develop and implement
April 1, 2008, through September 30, 2009, totaling         controls to assure the Office of the Solicitor completes
$16 million.                                                pre-award reviews of selected contracts as required.

READ THE FULL REPORT                                        The Assistant Secretary agreed with our
To view the report, including the scope, methodology,       recommendations and stated that MSHA is taking
and full agency response, go to:                            action to review its procurement program, identify
http://www.oig.dol.gov/public/reports/oa/2011/05-11-        lapses, and develop and implement new management
001-06-001.pdf.                                             procedures to improve the effectiveness and
                                                            accountability of its contracting.
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1


Results In Brief .............................................................................................................. 2


Objective 1 — Did MSHA comply with appropriate procurement regulations and 

              procedures in awarding contracts?.................................................... 3

         Restrictions on competition and small business opportunities were not 

         always supported; noncompliance with procurement regulations and 

         procedures was common. .................................................................................... 3


    Finding 1 — MSHA did not adequately justify sole source procurements, 

               promote full and open competition, or maximize opportunities for 

               small businesses. ................................................................................... 3

    Finding 2 — MSHA generally did not follow established procurement 

               procedures. .......................................................................................... 10


Recommendations ...................................................................................................... 14


Exhibits
    Exhibit 1 Contracts Awarded Without Full and Open Competition ........................... 19

    Exhibit 2 Contracts Where MSHA Did Not Follow General Procurement 

              Procedures ................................................................................................ 21

    Exhibit 3 Contracts with Incomplete DL 1-2216 ....................................................... 23


Appendices
    Appendix A Background .......................................................................................... 27

    Appendix B Objective, Scope, Methodology, and Criteria........................................ 29

    Appendix C Acronyms and Abbreviations................................................................ 33

    Appendix D MSHA's Response to Draft Report ....................................................... 35

    Appendix E Acknowledgements .............................................................................. 39





                                                                                                    MSHA Procurement
                                                                                            Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                              MSHA Procurement
                                      Report No. 05-11-001-06-001
                                                       U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                             Office of Inspector General
                                                     Washington, D.C. 20210




February 16, 2011

                                Assistant Inspector General’s Report



Joseph A. Main
Assistant Secretary for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Boulevard
Arlington, Virginia 22209


The mission of the U.S. Department of Labor’s (DOL) Mine Safety and Health
Administration (MSHA) is to promote safe and healthful workplaces for the nation's
miners. DOL’s Office of the Assistant Secretary for Administration and Management
(OASAM) responsibilities include managing the Department’s procurement programs.
OASAM has delegated to MSHA the authority and responsibility to contract for all of
MSHA’s program property and services. Within MSHA, the Directorate of Administration
and Management (A&M) is responsible for managing contracting activity.

Federal procurement regulations require, among other things, that MSHA promote full
and open competition, provide maximum opportunities to small businesses, and ensure
compliance with general procurement requirements. Past Office of Inspector General
(OIG) audit work at MSHA identified weaknesses in these areas. Specifically, a 2004 1
report concluded that MSHA consistently demonstrated a lack of regard for Federal
Acquisition Regulation (FAR) principles, and a 2008 2 report identified weaknesses in
MSHA’s awarding of procurement actions without full and open competition (i.e., sole
source).

From April 1, 2008, to September 30, 2009, MSHA completed 1,648 procurement
actions valued at $36 million. These actions consisted of 1,000 modifications to existing
contracts 3 and 648 new awards.

We conducted an audit to determine whether MSHA complied with appropriate
procurement regulations and procedures when making new contract awards. Our audit


1
  Mine Safety and Health Administration Procurements Showed a Pattern of Disregard for Federal and DOL 

Acquisition Rules and Requirements. (Report No. 25-05-001-06-001, October 29, 2004). 

2
  The Department of Labor’s Controls Over Sole Source Procurements Need Strengthening. 

(Report No. 03-08-002-07-711, September 30, 2008). 

3
  Contracts include: General Services Administration (GSA) orders, purchase orders, delivery orders issued under 

blanket purchase agreements, and Governmentwide Acquisition Contracts. 


                                                                                           MSHA Procurement
                                                         1                         Report No. 05-11-001-06-001
                                                          U.S. Department of Labor – Office of Inspector General



covered 133 new awards with individual values of $25,000 or more that MSHA awarded
from April 1, 2008, through September 30, 2009, totaling $16 million.

To accomplish our audit, we reviewed applicable sections of the Federal Acquisition
Regulation (FAR) and DOL’s procurement policies and procedures through
May 10, 2010. We interviewed MSHA officials and staff to gain an understanding of their
procurement process and controls. We reviewed contract files for a statistical sample of
133 new awards for compliance with FAR and DOL procurement requirements. We
conducted audit work at MSHA’s Headquarters located in Arlington, Virginia and the
National Mine Health and Safety Academy located in Beaver, West Virginia.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Our objective, scope, methodology, and criteria are detailed in Appendix
B.

RESULTS IN BRIEF

MSHA did not always adequately support sole source awards, promote full and open
competition, or maximize small business opportunities for 28 percent of the awards of
$25,000 or more. Deficiencies included no justifications or inadequate justifications to
make awards without full and open competition (12 instances); no Procurement Review
Board (PRB) reviews and Chief Acquisition Officer (CAO) approvals when required
(4 instances); no publication of solicitations (10 instances); and no review of proposed
procurements by the Office of Small Business Programs (OSBP) (14 instances).

In addition, MSHA did not comply with appropriate DOL procurement procedures for
38 percent of the awards of $25,000 or more. Deficiencies included no review of
solicitations or pre-award packages by DOL’s Office of the Solicitor (SOL) as required
by a Memorandum of Agreement (MOA) (16 instances); no approval by the Assistant
Secretary for Administration and Management (ASAM) (4 instances); no conflict of
interest certifications from program officials (9 instances); and incomplete Simplified
Acquisition Documentation Checklists (Form DL 1-2216) for contracts under $100,000
(17 instances) 4 .

These deficiencies occurred because of a lack of management oversight. By not
promoting full and open competition, maximizing small business opportunities, or
following appropriate procurement procedures, MSHA could not demonstrate that it
made the best award decisions.




4
    As a result of our audit, MSHA recreated, corrected, or completed these forms.

                                                                                             MSHA Procurement
                                                            2                        Report No. 05-11-001-06-001
                                                         U.S. Department of Labor – Office of Inspector General



We recommended that the Assistant Secretary for Mine Safety and Health (1) ensure
MSHA procurement officials comply with procedures for PRB review and CAO approval
as required by DOL policy; (2) require the Director of A&M to document, prior to final
contract award, supervisory review of all contracts awarded without full and open
competition, all contracts with a value of $100,000 or more, and a representative
sample of contracts valued from $25,000 to $100,000; (3) define and implement a
program to provide refresher training on procurement requirements contained in the
FAR, Department of Labor Acquisition Regulation (DOLAR), and Department of Labor
Manual Series (DLMS) to all MSHA contracting personnel at least annually; (4) and
develop and implement controls to track the Acquisitions Management Division’s (AMD)
compliance with the provisions of the MOA with DOL’s SOL.

In responding to our draft report, the Assistant Secretary for Mine Safety and Health
agreed that additional management controls and oversight would strengthen
accountability. He agreed with all of our recommendations and specifically stated that
MSHA is taking aggressive action to review its procurement program, identify lapses,
and correct them. He also reiterated MSHA’s longstanding commitment to a robust
procurement program that provides both opportunities for small business and a
successful competitive environment that maximizes value for the government.

The Assistant Secretary’s entire response is contained in Appendix D.


RESULTS AND FINDINGS

Objective 1 — Did MSHA comply with appropriate procurement regulations and
              procedures in awarding contracts?

         Restrictions on competition and small business opportunities were not always
         supported; noncompliance with procurement regulations and procedures was
         common.

Finding 1 — MSHA did not adequately justify sole source procurements, promote
            full and open competition, or maximize opportunities for small
            businesses.

In 19 percent 5 of contracts between $25,000-$100,000 and 42 percent of contracts
above $100,000, MSHA did not adequately justify sole source procurements, assure full
and open competition, or assure maximum opportunities for small businesses.
Specifically, our review of 88 contracts identified 40 instances in 25 contracts 6 in which
MSHA had no or inadequate justifications to award the contracts on a sole source basis
(12 instances); did not obtain PRB reviews and CAO approvals when required by DOL
policy (4 instances); did not publicize proposed contracts (10 instances); or did not

5
  The projected result of the statistical sample, at a 95 percent confidence level, ranges between 11 percent and 

27 percent. 

6
  Some contracts demonstrated more than one deficiency. 


                                                                                              MSHA Procurement
                                                           3                          Report No. 05-11-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



coordinate requirements with the Department’s OSBP for unrestricted procurements
above $100,000 (14 instances). See Exhibit 1 for a summary of deficiencies identified in
each of the 25 contracts.

MSHA’s internal controls, including management oversight, did not ensure adherence to
applicable procurement procedures. As a result, MSHA could not demonstrate that it
made the best contract award decisions.

Most sole source contracts had no justification or lacked an adequate justification.

Of the 19 contracts in the audit sample that MSHA awarded on a sole source basis,
5 had no justification and 7 lacked an adequate justification. For example:

      On April 22, 2008, MSHA awarded a delivery order totaling $230,340 through an
       existing General Services Administration (GSA) Schedule for noise dosimeter
       kits. The delivery order was awarded without evidence of any competition and
       without the sole source justification required by the FAR.

       MSHA stated that “This is a GSA Schedule order in which MSHA did not restrict
       competition and followed the procedure of FAR 8.405-1(c)(1).” This FAR
       provision states that orders placed through a GSA supply schedule should be
       placed with the schedule contractor that can provide the best value. Before
       placing an order, an ordering activity shall “[survey] at least three schedule
       contractors through the GSA Advantage! on-line shopping service, or by
       reviewing the catalogs or pricelists of at least three schedule contractors.” The
       contract file contained no evidence that the contracting officer surveyed or
       reviewed information from three schedule contractors.

       Instead, the file contained a handwritten note stating “single source under a GSA
       contract.” The contract file also contained an email from the contract recipient
       stating that it was the sole source manufacturer of the desired product and the
       lone authorized participant in the GSA schedule contract. Under these
       circumstances, FAR 8.405-6(g)(2) required that the contract file contain a
       “Limited Source Justification” that addressed a minimum of ten specific elements,
       including a determination by the contracting officer that the order represented the
       best value, the actions, if any, the agency may take to remove or overcome
       barriers that led to the restricted consideration before any subsequent
       acquisition, and the contracting officer’s certification that the justification was
       accurate and complete. The contract file did not contain a document or
       documents that addressed the limited source justification elements required by
       the FAR.

      On June 9, 2009, MSHA awarded a delivery order totaling $54,000 through an
       existing GSA Schedule for respirable dust cassettes. The delivery order was
       awarded without evidence of any competition and without the sole source
       justification required by the FAR.

                                                                            MSHA Procurement
                                            4                       Report No. 05-11-001-06-001
                                                     U.S. Department of Labor – Office of Inspector General




        MSHA stated that “This is a GSA Schedule order in which MSHA did not restrict
        competition and followed the procedure of FAR 8.405-1(c)(1).” As explained in
        the previous example, this FAR reference requires the contracting officer to place
        the order with the schedule contractor providing the best value after surveying or
        reviewing pricelists from three schedule contractors. The contract file contained
        no evidence that MSHA’s contracting officer performed these actions.

        Instead, the contract file contained a handwritten note, dated June 3, 2009, that
        read “Per [the Director of AMD] award under GSA single source contract due
        to lead time required and districts urgent need [bolding added for emphasis].”
        Although FAR 8.405-6(b)(3) does allow the restriction of competition when there
        is an “urgent and compelling need,” AMD received the request to purchase these
        items on March 19, 2009 - almost 3 months prior to actually placing the order.
        This delay does not support an “urgent need.”

       On December 10, 2008, and May 14, 2009, MSHA placed separate delivery
        orders, each valued at $339,300, to a GSA Schedule contractor for the purchase
        of respirable dust filters. Neither contract file contained any evidence of
        competition. Instead, both contract files contained written justifications for “Other
        Than Full and Open Competition,” although neither justification was signed by a
        program official or the contracting officer, as required. Both justification
        statements incorrectly cited FAR 6.302-5 as their authority to restrict competition.
        This FAR provision does not apply to GSA Schedule orders, which are
        specifically exempt from FAR Part 6. 7

        MSHA stated that each of these delivery orders was “a GSA Schedule order in
        which MSHA did not restrict competition and followed the procedure of
        FAR 8.405-1(c)(1).” However, as previously explained, this FAR provision
        requires a contracting officer to survey at least three scheduled contractors
        through the GSA website or review the catalogs or pricelists of at least three
        schedule contractors prior to placing an order. The contract file contained no
        evidence that MSHA’s contracting officer performed these actions.

Without proper support for contracts awarded on a sole source basis, MSHA cannot
demonstrate that it determined prices to be fair and reasonable or that it received the
best possible value in these procurements.

Required PRB reviews and CAO approvals were not obtained.

MSHA did not obtain a PRB review and recommendation or a CAO approval for four of
eight contracts in the audit sample that required them. As a result, MSHA lacked


7
 FAR 8.405-6(a)(2) states: Orders placed under Federal Supply Schedules are exempt from the requirements in Part
6. However, an ordering activity must justify its action when restricting competition to an item peculiar to one
manufacturer.

                                                                                        MSHA Procurement
                                                       5                        Report No. 05-11-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



assurance that the contracts had been properly awarded and that MSHA had received
the best value.

DLMS 2, Chapter 836, established the PRB as a senior-level clearinghouse to review
selected noncompetitive acquisition proposals and assistance instruments and
recommend approval or disapproval to the CAO. PRB review and CAO approval applies
to various actions, including all proposed acquisitions and assistance actions over
[$100,000], which are to be awarded under “other than full and open competition”
procedures, and all contracted advisory services, valued above $50,000, to be awarded
under “full and open competition” procedures. Requests for PRB review are to be
forwarded at least 60 days before planned award to allow the PRB sufficient time to
review and consider its recommendation.

The following two examples show the lack of controls to assure that these requirements
were being met.

      MSHA awarded a noncompetitive contract on December 1, 2008, totaling
       $132,800, for personal dust monitors and related items. The contracting officer
       did not obtain a review or recommendation from the PRB or approval from the
       CAO prior to making the award, as required.

       MSHA stated that AMD received this purchase request on December 1, 2008,
       along with assertions from the requesting program office that the quoted price
       was only good through the end of that day. After December 1, 2008, the cost
       reportedly would increase by $900 per unit (an additional $9,900 for the 11 units
       purchased). The contracting officer indicated the CAO had approved the
       procurement. However, the contract file did not contain nor did the contracting
       officer provide evidence to support this assertion. The Director of AMD stated
       that he approved the justification for a noncompetitive purchase in order to obtain
       the discounted price.

       The Director of AMD lacked the authority to exempt this procurement action from
       the requirement for PRB review and CAO approval prior to issuing a
       noncompetitive contract.

      On June 1, 2009, MSHA awarded an advisory and assistance contract totaling
       $175,000 through full and open competition procedures for statistical analysis
       and evaluation services. The contracting officer did not obtain a review or
       recommendation from the PRB or approval from the CAO prior to making the
       award, as required.

       MSHA stated that it had obtained PRB review and CAO approval and provided a
       copy of a Request for Recommendation by Procurement Review Board and a
       letter from the CAO.




                                                                            MSHA Procurement
                                            6                       Report No. 05-11-001-06-001
                                                         U.S. Department of Labor – Office of Inspector General



           The documents provided by MSHA did not relate to the contract we reviewed.
           Rather they related to a prior purchase order that MSHA had awarded without
           competition to the same contractor on October 1, 2008, in the amount of
           $100,000. CAO approval of this prior purchase order does not have any bearing
           on separate, subsequent contracts.

By not obtaining PRB review and CAO approval when required, MSHA lacked
assurance that the contracts had been properly awarded and that MSHA had received
the best value.

Proposed contracts were not publicized.

MSHA did not publish a public notice for 10 of 30 contracts in the audit sample that
required them. As a result, MSHA had no assurance that all interested, responsible
parties had an opportunity to compete for the award of these contracts.

FAR 5.002 requires contracting officers to publicize contract actions to increase
competition, broaden industry participation in meeting Government requirements, and
assist various small businesses in obtaining contracts and subcontracts. Specifically,
FAR 5.101(a) requires contracting officers to disseminate information on proposed
contract actions expected to exceed $25,000 in the “Governmentwide Point of Entry”
(GPE) 8 for at least 10 days beginning no later than the date the solicitation is issued.

FAR 5.202 lists 14 specific exceptions to this requirement for public notice. For
example, public notice is not required if:

          Disclosure would compromise national security;
          The proposed contract action is expressly authorized or required by statute to be
           made through another government agency or from a specific source;
          The proposed contract action is for utility services other than telecommunications
           services and only one source is available; or
          The agency head determines, in writing, that advance notice is not appropriate or
           reasonable.

MSHA did not synopsize 10 contracts (including seven sole source actions) in the GPE
to ensure offers were solicited from as many potential sources as practicable, as
required by FAR 5.2. For example:

          On November 17, 2008, MSHA awarded a purchase order totaling $41,470
           without competition to upgrade a computer program that was part of its Trapped
           Miner Detection and Location system. MSHA did not publish this contract in the
           GPE as required.




8
    Per FAR 2.101, the Governmentwide Point of Entry is located at http://www.fedbizopps.gov.

                                                                                            MSHA Procurement
                                                           7                        Report No. 05-11-001-06-001
                                         U.S. Department of Labor – Office of Inspector General



    MSHA cited FAR 5.202(a)(13)(i) and FAR 5.301(b)(7)(i) and stated that this
    purchase order was exempt from requirements for publication in the GPE
    because its estimated value was less than $100,000.

    However, the exception listed at FAR 5.202(a)(13) is a three-pronged test. It
    states that a contracting officer need not submit the notice to the GPE when

       (13) The proposed contract action—
            (i) Is for an amount not expected to exceed the simplified
                  acquisition threshold [$100,000];
            (ii) Will be made through a means that provides access to the
                  notice of proposed contract action through the GPE; and
            (iii) Permits the public to respond to the solicitation electronically.
                  [Bolding added for emphasis]

    To meet this exception all three elements of the test must be met. While the
    purchase order was below the $100,000 threshold (test 1), there was no
    evidence that the purchase order met either of the other two exception tests.

    FAR 5.301(b)(7)(i) relates to publishing contract award information and is
    therefore not relevant to the deficiency cited. However, it too contains the same
    three-pronged test as in FAR 5.202(a)(13).

    By not publishing this proposed purchase order in the GPE, MSHA did not 

    assure the fullest level of competition. Thus, there is no assurance that the 

    government obtained the best value on this purchase order. 


   From May 2008 to August 2009, MSHA awarded three contracts for the purchase
    and calibration of anemometers for use by mine inspectors totaling $276,855 to
    one contractor. MSHA again cited the same FAR exemption as in the previous
    example, but provided no evidence that these actions met the second or third
    elements of the exception.

    In addition, MSHA stated that the product purchased was the only anemometer
    certified by MSHA for use in mines. Since the Federal Mine Safety and Health
    Act of 1977 (the Mine Act) requires that only products certified by MSHA as
    intrinsically safe can be used in mines, MSHA argued that this purchase met the
    FAR exception (FAR 5.202(a)(4)) of being required by statute to be purchased
    from a specific source.

    However, MSHA’s Approval and Certification Center stated that it had no record
    that it had approved anemometers from this manufacturer for use in mines and
    that other manufacturers do hold MSHA approvals for anemometers.



                                                                          MSHA Procurement
                                           8                      Report No. 05-11-001-06-001
                                                        U.S. Department of Labor – Office of Inspector General



          On April 18, 2008 MSHA awarded a contract totaling $298,220 for the purchase
           of multi gas detectors. MSHA did not publish this contract in the GPE as
           required. Instead, the contracting officer simply requested price quotes from
           three vendors who had competed for a previous contract for the same
           equipment.

           The FAR does not provide an exception to the requirement to publish contracts in
           the GPE based on publication of previous contracts. MSHA agreed that this
           action should have been published in the GPE.

          On June 20, 2008, MSHA issued a purchase order totaling $28,567 for the 

           maintenance of computer servers. MSHA had not published this proposed 

           purchase order in the GPE as required. 


           MSHA agreed that this proposed purchase order should have been published in
           the GPE.

By not publishing proposed contracts in the GPE as required, MSHA did not promote
full and open competition. As a result, MSHA had no assurance that it obtained
maximum competition, and therefore, the best value in its procurements.

Small Businesses did not receive maximum practicable opportunities for unrestricted
procurements above $100,000.

For all 38 contracts above $100,000, MSHA did not obtain the required review of
proposed contracts by the OSBP. As a result, MSHA did not ensure maximum
practicable opportunities to small businesses.

DOLAR 2919.201(c) requires that

           All DOL procurements over the simplified acquisition threshold [$100,000],
           whether being conducted via open market or by ordering from a
           pre-existing contract vehicle such as GSA Schedule, must be reviewed
           and receive a recommendation by the OSBP 9 … prior to being advertised.
           The Acquisition Screening and Review Form DL 1–2004 shall be used for
           this purpose and the statement of work and market survey documentation
           shall be submitted to Office of Small Business Programs with the request
           for review.

The AMD Director and a former OSBP official stated that MSHA and OSBP had
modified this requirement through an informal agreement in 2006 because MSHA
had outperformed its small business goals. Under the verbal agreement, OSBP
required MSHA to submit only open market contracts that MSHA did not set
aside for small business participation.

9
    On March 1, 2010, OSBP was reorganized into the Office of Small and Disadvantaged Business Utilization.

                                                                                           MSHA Procurement
                                                          9                        Report No. 05-11-001-06-001
                                                         U.S. Department of Labor – Office of Inspector General



Neither OSBP nor MSHA had the authority to modify existing Departmental
procurement requirements. In addition, MSHA still routinely violated the less
stringent provisions of this informal agreement. Fourteen of the 38 contracts in
the audit sample were open market contracts that were awarded to large
businesses. So even under the informal agreement, MSHA should have provided
these contracts to OSBP for review. However, MSHA did not complete the
Acquisition Screening and Review Form or obtain an OSBP review of any of
these contracts (see Exhibit 1).

MSHA agreed that, even under the supposed informal agreement, 10 of the
14 contracts should have been referred to OSBP for review, but that the remaining 4
actions did not require OSBP review because they were sole source procurements.
However, the regulation, as cited above, contains no exception for sole source
contracts. Effective March 1, 2010, the Office of Small and Disadvantaged Business
Utilization required MSHA to prepare and submit a DL 1-2004 form for all contacts that
meet the DOLAR requirement.

By not obtaining the required OSBP review of proposed contracts as required, MSHA
did not assure that small businesses received maximum opportunities to participate in
the award.

Overall, MSHA lacked adequate controls, including appropriate management oversight,
to assure that its contracting personnel complied with procurement regulations and
procedures. The AMD Director only reviewed a sample of contracts prior to award and
his supervisor, the A&M Director, did not review any contracts. As a result, restrictions
on competition and small business opportunities were not justified or supported.


Finding 2 — MSHA generally did not follow established procurement procedures.

In 47 percent 10 of contracts between $25,000 - $100,000 and 24 percent of contracts
above $100,000, MSHA did not follow procurement procedures specified in the DOLAR,
the DLMS, and an MOA with the Department’s SOL. Specifically, our review of
88 contracts identified 46 instances in 33 contracts 11 in which MSHA did not follow the
MOA with the SOL (16 instances); obtain ASAM approval prior to awarding advisory
and assistance contracts (4 instances); obtain conflict of interest certifications for sole
source or advisory and assistance contracts (9 instances); or complete the Simplified
Acquisition Documentation Checklist (17 instances). (See Exhibit 2 for a summary of
deficiencies identified in each of the 33 contracts.)

These deficiencies occurred because MSHA’s contracting officers either did not know
of, did not understand, or misinterpreted the regulatory and policy requirements, and the


10
   The projected result of the statistical sample, at a 95 percent confidence level, ranges between 38 percent and 57 

percent. 

11
   Some contracts in the sample demonstrated more than one deficiency. 


                                                                                              MSHA Procurement
                                                          10                          Report No. 05-11-001-06-001
                                                    U.S. Department of Labor – Office of Inspector General



AMD Director did not provide adequate supervisory oversight prior to contract awards.
As a result, there is no assurance that MSHA properly awarded these contracts.

MOA between MSHA and the SOL was not being followed.

Under terms of an MOA, MSHA was required to submit solicitations and pre-award
packages meeting specified criteria to the Department’s SOL for review prior to
finalizing a contract. MSHA awarded all 16 contracts in the audit sample that met the
specified MOA criteria without submitting them for SOL review as required (as shown in
Exhibit 2). As a result, there was an increased risk that complex, high-dollar contracts
were not properly awarded.

In April 2006, to address procurement concerns raised in a prior OIG audit report 12 ,
MSHA established procedures under which SOL would review MSHA solicitations prior
to issuance and pre-award packages prior to award for:

        All solicitations and pre-awards for information technology contracts greater than
         $100,000 in total contract value;
        All solicitations and pre-awards for large, multi-year service contracts greater
         than $500,000. (Examples are Guard and Food Services at the Mine Academy);
        All solicitations and pre-awards for special security services, such as background
         investigation services, or contracts relating to continuing operations greater than
         $100,000;
        Any termination of a contract before the termination becomes effective, except in
         emergency mine rescue situations;
        All advisory and assistant contracts; and
        All non-GSA sole source procurements above $50,000.

The MOA stated that MSHA would not finalize any contract until SOL’s review was
completed and it would maintain a copy of the results of the SOL review in the
associated contract file.

However, although 16 of the contracts in the audit sample met the MOA criteria, none of
the contract files contained evidence of the required SOL review. MSHA stated that only
5 of the 16 contracts required SOL review and offered various explanations as to why
the other 11 were exempt from the MOA. For example:

        MSHA stated that two of the contracts had been reviewed by the PRB, and
         therefore, based on a verbal agreement with SOL, did not require separate SOL
         review. However, SOL denied that any such agreement existed and stated that a
         PRB review did not substitute for the required SOL review.

        MSHA stated that four of the contracts were purchases against existing contracts
         (e.g., a contract awarded by another federal agency), and were therefore,

12
  Mine Safety and Health Administration Procurements Showed a Pattern of Disregard for Federal and DOL
Acquisition Rules and Requirements. (Report No. 25-05-001-06-001, October 29, 2004)

                                                                                       MSHA Procurement
                                                      11                       Report No. 05-11-001-06-001
                                            U.S. Department of Labor – Office of Inspector General



       exempt from the MOA. However, the MOA contains no language that exempts
       pre-existing contracts from SOL review.

SOL agreed that all 16 contracts should have been sent to it for review.

The current MOA process has no control to assure that contracts meeting the MOA
criteria are, in fact, submitted to SOL for review. As a result, the MOA is ineffective in
meeting its stated purpose of “reducing overall risk to the agency and Department.”

ASAM approvals were not obtained.

MSHA awarded four advisory and assistance contracts without the required ASAM
approval. In responding to our inquiries, MSHA did not provide any explanation for not
obtaining ASAM approval. By awarding advisory and assistance contracts without
ASAM’s approval, the contracting officers violated MSHA’s independent contracting
authority.

DLMS-2, Chapter 814, lists the DOL agencies with independent contracting authority
and each agency’s respective delegated authority and responsibilities. DLMS-2,
Chapter 817, lists exclusions to this delegated authority. Specifically, DLMS-2, Chapter
817(A1), states:

       The ASAM retains authority and responsibility for approval of requests for
       contracted advisory services for individuals and organizations … when
       acquisitions by either contract or purchase order are to be awarded
       without competition, regardless of amount, or for those competitive actions
       costing $50,000 or more.

MSHA awarded all four contracts in the audit sample that met the exclusion criteria
without evidence of the ASAM’s approval (as shown in Exhibit 2).

Advisory & Assistance Contracts Awarded Without ASAM Approval
                                                 Evidence of
   Contract #      Competed? Contract Value
                                               ASAM Approval
DOLB09MR20643          No         $100,000           No
DOLB09MR20637          No          $50,000           No
 DOLJ094R22465        Yes          $87,500           No
 DOLJ094R22516        Yes         $175,000           No

Conflict of interest certifications were not obtained.

MSHA had not obtained conflict of interest certifications from program officials for 9 of
13 contracts in the audit sample that required them. These certifications were intended
to identify any relationships between program officials and the proposed contract
recipient. Because MSHA had not obtained conflict of interest certifications prior to
awarding these contracts, it had no assurance that they were properly awarded.

                                                                             MSHA Procurement
                                              12                     Report No. 05-11-001-06-001
                                                     U.S. Department of Labor – Office of Inspector General




DLMS-2, Chapter 835A states:

      The program office official responsible for an “other than full and open
      competition” request or a request for contracted advisory and assistance
      services shall, as part of the request, explain any past or existing business
      or personal relationships with the proposed recipient or certify that none
      exist.

Thirteen contracts in the audit sample met the criteria for conflict of interest certification
because they were either awarded without competition or because they were advisory
and assistance contracts. MSHA had not obtained conflict of interest certifications for 9
of these 13 contracts as shown below:

       Contracts Awarded Without Conflict of Interest Certifications
                                                                Conflict of
                     Contract                  Advisory &
       Contract #              Competed?                          Interest
                       Value                   Assistance?
                                                              Certification?
 1   DOLB084R21987 $ 64,875        No               No               No*
 2   DOLB084R22093 $ 27,221        No               No               No
 3   DOLB09MR20643 $100,000        No              Yes              Yes
 4   DOLB09MR20637 $ 50,000        No              Yes              Yes
 5   DOLB094R22313 $ 27,783        No               No               No
 6   DOLB094R22346 $ 41,470        No              Yes               No*
 7   DOLJ094R22371   $132,800      No               No               No*
 8   DOLJ094R22465   $ 87,500      Yes             Yes               No
 9   DOLJ094R22403   $159,480      No               No               No*
10   DOLJ09MR20672 $ 38,400        No               No              Yes
11   DOLJ094R22516   $175,000      Yes             Yes               No
12   DOLJ094R22554   $155,653      No               No               No
13   DOLB094R22590 $ 52,500        No               No              Yes
  * Subsequent to our audit work and after the contract had been completed, MSHA obtained a signed conflict of
    interest certification from a program official for these contracts.

MSHA concurred that the contracting officers had not obtained certifications for 6 of the
9 contracts (Items 1, 2, 5, 6, 7, and 9). For two contracts (Items 8 and 11), MSHA
provided signed conflict of interest certifications for prior contracts with the same
contractor. This does not satisfy the DLMS requirement. For the final contract (Item 12),
MSHA stated that a conflict of interest certification was not required because the
contract was a purchase related to a pre-existing contract. However, this action was
processed as a separate contract, not a modification of a prior contract.




                                                                                         MSHA Procurement
                                                       13                        Report No. 05-11-001-06-001
                                                    U.S. Department of Labor – Office of Inspector General



Simplified Acquisition Documentation Checklists (DL 1-2216) were not properly
maintained.

For awards below the simplified acquisition threshold of $100,000, 17 of 50 contract
files had incomplete simplified acquisition checklists. The checklist must be completed
and certified by a contracting officer because it supports the decisions made by the
contracting officer.

DOLAR 2953.101 provides a Simplified Acquisition Documentation Checklist (DL 1–
2216) that all contracting officers must use to document all simplified acquisitions at or
below the simplified acquisition threshold. Furthermore, a 2006 OIG audit report 13
examined whether DOL agencies with independent contracting authority procured
supplies and services through the GSA Schedules Program in accordance with
prescribed rules and regulations and found no evidence that MSHA’s contracting
officers were checking required sources before making GSA schedule procurements. In
response to the audit recommendations, OASAM responded they would require all DOL
contracting officers to use the revised Form DL 1-2216 by the first quarter of FY 2007.
Fifty contracts in the audit sample were at or below the simplified acquisition threshold
($100,000). MSHA contracting officers did not complete Simplified Acquisition
Documentation Checklists for 17 of these 50 contracts as shown in Exhibit 3.

MSHA could not demonstrate that it made the best decisions in awarding contracts to
carry out its activities. MSHA has not followed the procedural reforms it put into place as
corrective actions in response to previous OIG audit reports. As a result, the
procurement weaknesses identified in the 2004 and 2006 OIG reports are still present.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Mine Safety and Health Administration:

     1. Ensure MSHA procurement officials comply with procedures for PRB review and
        CAO approval as required by DOL policy.

     2. Require the Director of A&M to document, prior to final contract award,
        supervisory review of all contracts awarded without full and open competition, all
        contracts with a value of $100,000 or more, and a representative sample of
        contracts valued from $25,000 – $100,000;

     3. Define and implement a program to provide refresher training on procurement
        requirements contained in the FAR, DOLAR, and DLMS to all MSHA contracting
        personnel at least annually; and


13
  Report Number 05-06-004-07-001, There Is No Evidence Contracting Officers Are Checking Required Sources
before Making GSA Schedule Procurements

                                                                                      MSHA Procurement
                                                     14                       Report No. 05-11-001-06-001
                                        U.S. Department of Labor – Office of Inspector General



   4. Develop and implement controls to track AMD’s compliance with the provisions
      of the MOA with the Department’s SOL.


We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                         MSHA Procurement
                                         15                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              MSHA Procurement
              16                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




Exhibits 





                                              MSHA Procurement
              17                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                              MSHA Procurement
              18                      Report No. 05-11-001-06-001
                                                                       U.S. Department of Labor – Office of Inspector General



                                                                                                                                                        Exhibit 1
Contracts Awarded Without Full and Open Competition




                                                                                                                            Not Synopsized 

                                                                                          No PRB Review 

                                                                        Adequate Sole 





                                                                                                                                               2004 and OSBP

                                                                                                                            Competed and

                                                                                                            Sole Source 


                                                                                                            Synopsized 

                                                                         Justification





                                                                                                                                                Missing DL 1­
                                         Date Issued




                                                          Amount ($)
                Contract #




                                                                                             Approval

                                                                                             and CAO





                                                                                                                                                   Review 

                                                                           Source 

                                                                           Missing





                                                                                                              and Not

SAMPLE 1
 1 DOLB094R22313*      11/06/08                         27,783                                                Yes
 2 DOLB084R22044       06/20/08                         28,567                                                              Yes
 3 DOLJ09MR20672*      04/01/09                         38,400               Yes                              Yes
 4 DOLB094R22346*      11/17/08                         41,470                                                Yes
 5 DOLB09MR20637*      10/01/08                         50,000               Yes
 6 DOLB094R22590*      08/03/09                         52,500                                                Yes
 7 DOLF094R22547       06/09/09                         54,000               Yes
 8 DOLB084R21987*      05/05/08                         64,875                                                Yes
 9 DOLB09MR20643*      10/01/08                        100,000               Yes
                 Total Amount¹                         457,595

                                        Total Exceptions                    4                 0                5              1                    0
                                          Total Contracts                   11                3                7             12                    0
                             Total Exceptions (% of Total)                 36%               0%               71%            8%                   0%

SAMPLE 2
  1 DOLJ094R22628     09/24/09                          101,664                                                             Yes
  2 DOLF094R22588     07/29/09                          102,655                                                                                  Yes
  3 DOLJ094R22371*    12/01/08                          132,800              Yes             Yes                                                 Yes
  4 DOLJ094R22521     05/12/09                          137,832                                                                                  Yes
  5 DOLJ094R22613     09/08/09                          138,793                                                                                  Yes
  6 DOLJ094R22554*    06/12/09                          155,653              Yes             Yes              Yes                                Yes
  7 DOLJ094R22403*    03/07/09                          159,480              Yes             Yes              Yes                                Yes
  8 DOLJ094R22516*    06/01/09                          175,000                              Yes
  9 DOLF094R22471     03/24/09                          175,440              Yes                                                                 Yes
 10 DOLJ084R22085     08/13/08                          193,908                                                                                  Yes
 11 DOLF084R21975     04/22/08                          230,340              Yes                                                                 Yes
 12 DOLF09MR20693*    09/30/09                          244,400                                                                                  Yes
 13 DOLF084R21971     04/18/08                          250,293              Yes                                                                 Yes
 14 DOLJ084R21968     04/18/08                          298,220                                                             Yes                  Yes
 15 DOLF094R22386     12/10/08                          339,300              Yes                                                                 Yes
 16 DOLF094R22528     05/14/09                          339,300              Yes                                                                 Yes
                Total Amount¹                          3,175,079

                                        Total Exceptions                    8                4                 2             2                   14
                                          Total Contracts                   8                5                 2             9                   14
                             Total Exceptions (% of Total)                100%              80%              100%           22%                 100%
*These twelve (12) contracts also have a deficiency in Finding 2. See Exhibit 2.
¹ Total amounts have been rounded to the nearest dollar.




                                                                                                                         MSHA Procurement
                                                                        19                                       Report No. 05-11-001-06-001
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                             MSHA Procurement
             20                      Report No. 05-11-001-06-001
                                                            U.S. Department of Labor – Office of Inspector General



                                                                                                        Exhibit 2
Contracts Where MSHA Did Not Follow General Procurement Procedures

                                   Date         Amount         No SOL       No ASAM       No COI        Incomplete
           Contract #
                                  Issued          ($)          Review       Approval    Certification    DL 1-2216
SAMPLE 1
 1 DOLB094R22231       10/20/08                  25,000                                                    Yes
 2 DOLB084R22014       05/23/08                  26,031                                                    Yes
 3 DOLF084R22042       06/17/08                 26,562                                                     Yes
 4 DOLB084R22093       08/20/08                  27,221                                     Yes
 5 DOLB094R22313*      11/06/08                  27,783                                     Yes
 6 DOLB094R22603       08/28/09                  28,397                                                    Yes
 7 DOLB084R22049       06/24/08                  28,655                                                    Yes
 8 DOLF094R22573       07/10/09                 29,576                                                     Yes
 9 DOLF084R22078       08/04/08                 33,416                                                     Yes
10 DOLB094R22228       10/18/08                  37,500                                                    Yes
11 DOLJ09MR20672*      04/01/09                  38,400                                                    Yes
12 DOLF094R22468       03/18/09                 41,020            Yes
13 DOLB094R22346*      11/17/08                  41,470                                     Yes
14 DOLF094R22562       07/07/09                 42,654            Yes
15 DOLB09MR20637*      10/01/08                 50,000            Yes           Yes                        Yes
16 DOLB094R22590*      08/03/09                  52,500           Yes
17 DOLF094R22594       08/04/09                 55,757                                                     Yes
18 DOLB084R21987*      05/05/08                  64,875           Yes                       Yes            Yes
19 DOLF084R22086       08/13/08                 69,660                                                     Yes
20 DOLJ094R22465       03/01/09                 87,500            Yes           Yes         Yes
21 DOLB094R22618       09/18/09                  89,639                                                    Yes
22 DOLB08MR20613       05/22/08                  94,225                                                    Yes
23 DOLB084R22043       06/18/08                  95,040                                                    Yes
24 DOLB09MR20643*      10/01/08                 100,000           Yes           Yes                        Yes
                 Total Amount¹                 1,212,882

                                   Total Exceptions                 7            3           5              17
                                     Total Contracts                7            3           9              50
                        Total Exceptions (% of Total)             100%         100%         56%            34%

SAMPLE 2
 1 DOLJ094R22371*      12/01/08                 132,800           Yes                       Yes
 2 DOLB09MR20654       12/30/08                 150,825           Yes
 3 DOLJ094R22554*      06/12/09                 155,653           Yes                       Yes
 4 DOLJ094R22403*      03/07/09                 159,480           Yes                       Yes
 5 DOLF09MR20684       06/26/09                 163,050           Yes
 6 DOLJ094R22516*      06/01/09                 175,000           Yes           Yes         Yes
 7 DOLJ084R22121       09/25/08                 182,665           Yes
 8 DOLB08MR20629       12/03/08                 218,505           Yes
 9 DOLF09MR20693*      09/30/09                 244,400           Yes
                 Total Amount¹                 1,582,378

                                   Total Exceptions                 9            1           4              0
                                     Total Contracts                9            1           4              0
                        Total Exceptions (% of Total)             100%         100%        100%            0%
* These twelve (12) contracts also have a deficiency in Finding 1. See Exhibit 1.
¹ Total amounts have been rounded to the nearest dollar.



                                                                                               MSHA Procurement
                                                             21                        Report No. 05-11-001-06-001
            U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                             MSHA Procurement
             22                      Report No. 05-11-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                      Exhibit 3
Contracts with Incomplete DL 1-2216

                     Amount
       Contract #                                Checklist Items Not Completed
                       ($)
                               ▪ Part II, Pricing Memorandum
1    DOLB084R21987   64,875
                               ▪ Part IV, Large Business Documentation
                               ▪ Part I-A, Item 1 Excess supply and inventory
2    DOLB08MR20613   94,225
                               ▪ Part I-A, Item 2 Consulted required sources
                               ▪ Sec. B, Item 1 Required source checked
3    DOLB084R22014   26,031    ▪ Sec. B, Item 2 Excess inventory checked
                               ▪ Sec. B, Item 7 No reason selected for using a large business
4    DOLF084R22042   26,562    ▪ Part III, Sole Source Documentation
5    DOLB084R22043   95,040    ▪ Part I-B, Item 2 Small business set aside
                               ▪ Sec. B, Item 7 No reason selected for using “other than small
6    DOLB084R22049   28,655
                               business”
                               ▪ Sec. B, Item 1 Required source checked
                               ▪ Sec. B, Item 2 Excess inventory checked (no explanation of “N/A”
7    DOLF084R22078   33,416
                               selection)
                               ▪ Sec. B, Item 7 No reason selected for using a large business"
                               ▪ Sec. B, Item 1 Required source checked (no explanation of “N/A”
                               selection)
8    DOLF084R22086   69,660
                               ▪ Sec. B, Item 2 Excess inventory checked (no explanation of “N/A”
                               selection)"
                               ▪ Sec. B, Item 1 Required source checked (no explanation of “N/A”
                               selection)
9    DOLB09MR20643   100,000
                               ▪ Sec. B, Item 2 Excess inventory checked (no explanation of “N/A”
                               selection)"
                               ▪ Sec. B, Item 1 Required source checked (no explanation of “N/A”
                               selection)
10   DOLB09MR20637   50,000
                               ▪ Sec. B, Item 2 Excess inventory checked (no explanation of “N/A”
                               selection)"
11   DOLB094R22228   37,500    ▪ Sec. B, Item 2 Excess inventory checked
                               ▪ Sec. B, Item 1 Required source checked
12   DOLB094R22231   25,000    ▪ Sec. B, Item 2 Excess inventory checked
                               ▪ Sec. B, Item 7 No reason selected for using a large business"
13   DOLJ09MR20672   38,400    ▪ Part IV Large Business Documentation
                               ▪ Part I-A, Item 1 Excess supply and inventory
                               ▪ Part I-A, Item 2 Consulted required sources
14   DOLF094R22573   29,576
                               ▪ Part I-A, Item 4 Quotations, clearances, and approvals
                               ▪ Part I-B, Item 2 Small business set aside"
                               ▪ Part I-A, Item 1 Excess supply and inventory
                               ▪ Part I-A, Item 2 Consulted required sources
15   DOLF094R22594   55,757
                               ▪ Part I-A, Item 4 Quotations, clearances, and approvals
                               ▪ Part I-B, Item 2 Small business set aside"
16   DOLB094R22603   28,397    ▪ Part IV Large Business Documentation
                               ▪ Sec. B, Item 1 Required source checked
17   DOLB094R22618   89,639
                               ▪ Sec. B, Item 2 Excess inventory checked




                                                                            MSHA Procurement
                                            23                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              MSHA Procurement
              24                      Report No. 05-11-001-06-001
               U.S. Department of Labor – Office of Inspector General




Appendices 





                                                MSHA Procurement
                25                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                                              MSHA Procurement
              26                      Report No. 05-11-001-06-001
                                           U.S. Department of Labor – Office of Inspector General



                                                                                  Appendix A
Background

The DOL MSHA helps in reducing deaths, injuries, and illnesses in the Nation's mines
with a variety of activities and programs. The agency develops and enforces safety and
health rules applying to all U.S. mines; helps mine operators with special compliance
problems; and makes available technical, educational, and other types of assistance.
MSHA also works cooperatively with industry, labor, and other Federal and state
agencies toward improving safety and health conditions for all miners. MSHA’s
responsibilities are spelled out in the Mine Act and amended by the Mine Improvement
and New Emergency Response Act (MINER Act). These acts apply to all U.S. mining
and mineral processing operations.

In DOL, OASAM, through the Department's Procurement Executive, is responsible for
implementing the Department's procurement program and ensuring that the program is
performing in accordance with the appropriate laws and regulations. The Department’s
procurement program is a decentralized structure with OASAM, MSHA, the
Employment and Training Administration, the Bureau of Labor Statistics, and the OIG
having their own procurement authority. MSHA is delegated authority and responsibility
for contracting for all program property and services.

From April 1, 2008, to September 30, 2009, MSHA’s contracts totaled 1,648 and were
valued at approximately $36 million.

MSHA’s A&M provides administrative and management advice, products, and services
to assist the Office of the Assistant Secretary in implementing the Mine Act and the
MINER Act. The Director of A&M is the Head of Contracting Activity for MSHA, and has
the overall responsibility for managing contracting activity. The AMD is a division within
A&M responsible for procurement and contracting. Contracting officers are responsible
for all stages of a contract, including pre-award, award, post-award, administration, and
close out. AMD has contracting officers and purchase agents located at MSHA’s
headquarters in Arlington, Virginia, and in the National Mine Health and Safety
Academy in Beaver, West Virginia.

Past OIG audit work has identified weaknesses in MSHA’s procurement and contracting
function. A 2004 report concluded that MSHA consistently demonstrated a lack of
regard for FAR principles and that MSHA fostered an environment that allowed, or at
the very least had the appearance of allowing, best value through competition to be
replaced with awarding contracts based on favoritism or convenience. To address the
findings raised in the 2004 audit report, MSHA and the SOL entered into a 5-year MOA,
dated April 5, 2006, which established procedures under which SOL will review MSHA
solicitations and contract awards that are complex or of a high dollar value. Moreover, a
2006 report examined whether DOL agencies with independent contracting authority
procured supplies and services through the GSA Schedules Program in accordance
with prescribed rules and regulations concluded that MSHA’s contracting officers were
not checking required sources before making GSA schedule procurements. Finally, a

                                                                            MSHA Procurement
                                            27                      Report No. 05-11-001-06-001
                                        U.S. Department of Labor – Office of Inspector General



2008 report that examined sole source procurements by DOL agencies with
independent contracting authority identified several weaknesses in MSHA’s awarding of
non-competitive procurement actions.




                                                                         MSHA Procurement
                                         28                      Report No. 05-11-001-06-001
                                            U.S. Department of Labor – Office of Inspector General



                                                                                   Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The OIG conducted the audit to determine whether MSHA complied with appropriate
procurement regulations and procedures in awarding contracts.

Scope

The audit examined selected MSHA contracts awarded from April 1, 2008, through
September 30, 2009. We considered whether internal controls significant to the
awarding of contracts were properly designed and placed in operation. We confirmed
our understanding of these controls and procedures through interviews and a review of
contracts.

Of the 1,648 contracts totaling $36 million awarded by MSHA during this period, we
eliminated contracts valued at $25,000 or less and modifications. The remaining
procurement actions totaled 133 and were valued at approximately $16 million.

Fieldwork was conducted at MSHA’s headquarters located in Arlington, Virginia, and the
National Mine Health and Safety Academy located in Beaver, West Virginia.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

To accomplish our objective, we obtained an understanding of MSHA’s procurement
procedures for contract awarding. We identified significant risks in contracting that can
result in violations of Federal and DOL laws and regulations. We then interviewed
MSHA officials from A&M, the Director of AMD, contracting officers and purchasing
agents, and SOL personnel to determine whether MSHA had internal controls in place
to mitigate contracting risks, the likelihood of the contracting risks, and the impact of the
contracting risks. We also reviewed criteria for awarding contracts in the FAR, DOLAR,
the DLMS, and the MOA between MSHA and the SOL, and the Partnership Agreement
for 8(a) contracts between SBA and DOL.

In performing the audit, MSHA provided us with a Federal Procurement Data System-
Next Generation (FPDS-NG) report as of November 4, 2009. We performed a data
reliability assessment to ensure we have complete and accurate procurement data. To
determine whether the data was reliable to select our sample, we compared the

                                                                             MSHA Procurement
                                             29                      Report No. 05-11-001-06-001
                                            U.S. Department of Labor – Office of Inspector General



FPDS-NG procurement data reports MSHA provided us with a report OASAM provided
us. We did note a few differences, but the differences were not material for the purpose
of selecting a sample of contracts to review. We concluded the data to be sufficiently
reliable for our purposes.

To determine whether MSHA awarded contracts in accordance with procurement
procedures and if the procurement files contained the required documentation and an
appropriate level of management oversight, we reviewed a random stratified statistical
sample of contract files. Our review focused on actions $25,000 and above awarded
from April 1, 2008, through September 30, 2009. In addition to excluding contracts
valued below $25,000, we also excluded actions with no obligation made, actions with a
negative obligation, and modifications. The remaining contracts totaled 133 and were
valued at approximately $16 million.

Different Federal and DOL procurement rules and regulations apply to contracts below
and above $100,000. As a result, we stratified the 133 contracts into two strata based
on the obligation amount. Stratum One consisted of 95 contracts with award values
between $25,000 - $100,000. We randomly selected 50 contracts from Stratum One.
The results of this sample were projected to the population. Stratum Two consisted of
contracts with award values above $100,000 and we selected all 38 contracts for
review.

For contracts at or below the simplified acquisition threshold (currently $100,000), we
verified that the actions were awarded in accordance with simplified acquisition
procedures and other agreements (e.g., MOA and the Partnership Agreement with the
SBA). For contracts above the simplified acquisition threshold, we reviewed the
following areas:

      Purchase request, acquisition planning information, and other pre-solicitation
       documentation;
      SOL’s review for each complex or high dollar contract;
      Justifications (e.g., Justifications for other than full and open competition) and
       approvals (e.g., PRB review and CAO approval, ASAM approval, etc.);
      The list of sources solicited and selected;
      A copy of the solicitation and amendments (if any);
      Contractor’s representations and certifications;
      Cost or price analysis; and
      The original signed contract or award.

We evaluated internal controls used by MSHA for reasonable assurance that AMD
complied with appropriate procurement regulations and procedures in awarding
contracts. Our consideration of MSHA’s internal controls for procurement procedures
related to awarding contracts would not necessarily disclose all matters that might be
reportable conditions. Because of inherent limitations in internal controls,
misstatements, or losses, noncompliance may nevertheless occur and not be detected.



                                                                             MSHA Procurement
                                             30                      Report No. 05-11-001-06-001
                                         U.S. Department of Labor – Office of Inspector General



Criteria

Federal Acquisition Regulation

The Code of Federal Regulations, Title 48, Federal Acquisition Regulations System,
Volume 7, Chapter 29 Department of Labor

Department of Labor Manual Series

06-MOU-082, Memorandum of Agreement between MSHA and SOL, effective
April 5, 2006

Partnership Agreement between the Small Business Administration and DOL




                                                                          MSHA Procurement
                                          31                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              MSHA Procurement
              32                      Report No. 05-11-001-06-001
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix C
Acronyms and Abbreviations

A&M             Directorate of Administration & Management

AMD             Acquisitions Management Division

ASAM            Assistant Secretary for Administration and Management

CAO             Chief Acquisition Officer

DLMS            Department of Labor Manual Series

DOL             Department of Labor

DOLAR           Department of Labor Acquisition Regulation

FAR             Federal Acquisition Regulation

FPDS-NG         Federal Procurement Data System-Next Generation

GPE             Governmentwide Point of Entry

GSA             General Services Administration

MOA             Memorandum of Agreement

Mine Act        Federal Mine Safety and Health Act of 1977

MINER Act       Mine Improvement and New Emergency Response Act

MSHA            Mine Safety and Health Administration

OASAM           Office of the Assistant Secretary for Administration and
                Management

OIG             Office of Inspector General

OSBP            Office of Small Business Programs

PRB             Procurement Review Board

SOL             Office of the Solicitor




                                                                           MSHA Procurement
                                           33                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              MSHA Procurement
              34                      Report No. 05-11-001-06-001
                                  U.S. Department of Labor – Office of Inspector General



                                                                         Appendix D
MSHA's Response to Draft Report




                                                                   MSHA Procurement
                                   35                      Report No. 05-11-001-06-001
U.S. Department of Labor – Office of Inspector General




                                 MSHA Procurement
 36                      Report No. 05-11-001-06-001
U.S. Department of Labor – Office of Inspector General




                                 MSHA Procurement
 37                      Report No. 05-11-001-06-001
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                                              MSHA Procurement
              38                      Report No. 05-11-001-06-001
                                         U.S. Department of Labor – Office of Inspector General



                                                                                Appendix E
Acknowledgements

Key contributors to this report were Charles Allberry, Michael Kostrzewa, Richard
Donna Jr., Ann Marie Lawrence, Kathleen Mitomi, Elizabeth Garcia, and Ajit Buttar.




                                                                          MSHA Procurement
                                          39                      Report No. 05-11-001-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:    http://www.oig.dol.gov/hotlineform.htm
Email:     hotline@oig.dol.gov

Telephone:	 1-800-347-3756
            202-693-6999

Fax:       202-693-7020

Address:   Office of Inspector General
           U.S. Department of Labor
           200 Constitution Avenue, N.W.
           Room S-5506
           Washington, D.C. 20210
